 DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General


     Better Management Needed for the
    National Bio-Surveillance Integration
              System Program




OIG-07-61                      July 2007
                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      July 26, 2007

                                      Preface

The Department of Homeland Security, Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared
as part of our oversight responsibilities to promote economy, efficiency, and effectiveness
within the department.

This report addresses how well the National Bio-Surveillance Integration System is being
developed to provide comprehensive and integrated bio-surveillance situational awareness.
It is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations

    Executive Summary ...................................................................................................................1

    Background ................................................................................................................................2

    Results of Audit .........................................................................................................................6

               Program Leadership and Support...................................................................................6

               NBIS Program Execution ............................................................................................14

    Recommendations....................................................................................................................24

    Management Comments and OIG Analysis ............................................................................24

    Appendices
    Appendix A:          Purpose, Scope, and Methodology....................................................................27
    Appendix B:          Management Responses to the Draft Report.....................................................29
    Appendix C:          Major Contributors to this Report .....................................................................33
    Appendix D:          Report Distribution............................................................................................34

    Abbreviations

    BCOP            Biological Common Operating Picture
    DHS             Department of Homeland Security
    GAO             Government Accountability Office
    HSPD            Homeland Security Presidential Directive
    IAIP            Information Analysis and Infrastructure Protection
    IT              Information Technology
    NBIS            National Bio-Surveillance Integration System
    OCMO            Office of the Chief Medical Officer
    OHA             Office of Health Affairs

    Figures
    Figure 1 – NBIS Operating Environment ..................................................................................4
    Figure 2 – NBIS Program Depiction of the BCOP....................................................................5
    Figure 3 – NBIS Ownership and Program Transitions..............................................................6
    Figure 4 – President G.W. Bush Speaking on Pandemic Influenza...........................................9
    Figure 5 – NBIS Organization Chart, as of March 2007 .........................................................13
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                   The ability to recognize quickly the signs of an intentional biological attack or
                   naturally occurring outbreak is crucial to protecting the American public.
                   Recognizing a gap in national biological threat analysis, in 2004, the President
                   directed the Department of Homeland Security (DHS) to consolidate federal
                   agency bio-surveillance data in one system. In response, DHS began efforts
                   to develop the National Bio-Surveillance Integration System (NBIS), the
                   nation’s first system capable of providing comprehensive and integrated bio-
                   surveillance and situational awareness.

                   As part of our ongoing responsibility to assess the efficiency, effectiveness,
                   and economy of departmental programs and operations, we audited the NBIS
                   program. The objectives of our audit were to determine (1) the efficacy of
                   DHS’ plans, policies, and procedures for collaborating with other federal,
                   state, and local stakeholders to gather and share bio-surveillance information
                   via NBIS; and (2) whether the system will meet user needs, information
                   security requirements, and privacy policies and procedures. The purpose,
                   scope, and methodology of this audit are discussed in Appendix A.

                   NBIS, a key element of DHS’ bio-protection program, is falling short of its
                   objectives. Specifically, DHS has not provided consistent leadership and staff
                   support to ensure successful execution of the NBIS program. For various
                   reasons, NBIS ownership has shifted among department organizations
                   numerous times, with corresponding fluctuations in the program approach,
                   priority, and accomplishments. NBIS also has struggled since its inception to
                   secure the staff needed to manage program activities effectively. As a result
                   of the repeated transitions and staffing shortfalls, planning documents needed
                   to guide information technology (IT) development have yet to be finalized.
                   Program management has not effectively communicated and coordinated with
                   stakeholders to secure the data, personnel, and information sharing
                   agreements needed to support system development. Additionally, program
                   management did not provide the contractor with adequate guidance,
                   requirements input, or data sources to deliver a fully functional system. As
                   such, the contractor may not fulfill NBIS capability and schedule
                   requirements, which potentially could result in cost increases to the program.


           Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 1
Background
                The President issued two directives in 2004, aimed at improving coordination
                across all federal agency bio-awareness programs. Specifically, Homeland
                Security Presidential Directive (HSPD) 9, Defense of United States
                Agriculture and Food, dated January 30, 2004, charges federal agencies to
                create a new biological threat awareness capacity. HSPD-9 directs the
                Secretary of Homeland Security to coordinate with cross-federal efforts to
                build on updated and improved surveillance systems and create a new
                biological threat awareness capacity that will enhance detection and
                characterization of an attack. Further, HSPD-10, Biodefense for the 21st
                Century, dated April 28, 2004, calls for an integrated and comprehensive
                attack warning system that will assist in recognizing and responding to
                biological attacks on humans, animals, food, water, agriculture, and
                environmental resources. HSPD-10 directs the Secretary of Homeland
                Security to integrate all federal agency efforts to create a national bio-
                awareness system that will detect a biological attack at the earliest possible
                moment and permit initiation of a robust response to prevent unnecessary loss
                of life, economic impact, and social disruption. In addition, in November
                2005, the President issued the National Strategy for Pandemic Influenza,
                which outlines the need for an early warning system to identify possible
                pandemic outbreaks.

                Since 2001, federal agencies collectively have spent an estimated $32 billion
                on electronic surveillance systems and various other IT initiatives to address
                bio-defense. Bio-defense is defined as procedures involved in taking
                defensive measures against attacks using biological agents. Defensive
                measures include research on vaccines and medications, hospital
                preparedness, and protection of water supplies. For example, since 2003, the
                Centers for Disease Control and Prevention has operated its BioSense
                program, which collects data on human health through partnerships with the
                Department of Veterans Affairs, the Department of Defense, and state and
                local entities. DHS, in cooperation with the Environmental Protection Agency
                and the Centers for Disease Control and Prevention, created the BioWatch
                program in 2004 to detect the release of airborne biological agents. In
                addition, the Food and Drug Administration and the United States Department
                of Agriculture, in September 2000 and October 2006 respectively, initiated
                programs to better analyze plant, animal, and human health data available
                within their agencies. Although these individual programs have helped in
                gathering and reviewing sector-specific data, the federal government has had
                no single system for consolidating and examining bio-surveillance across
                federal, state, and local lines.




        Better Management Needed for the National Bio-Surveillance Integration System Program

                                               Page 2
                          DHS’ Science and Technology Directorate began the NBIS program in 2004
                          as a means of integrating bio-surveillance information across government.
                          The program essentially is composed of three parts:

                               •   A robust information management system capable of handling large
                                   quantities of structured and unstructured data;
                               •   A corps of specially skilled subject matter experts responsible for
                                   analyzing the data and providing situational awareness; and
                               •   A culture of cooperation among interagency partners.

                          In addition to integrating disparate agency systems, NBIS was designed to
                          bring together bio-surveillance data from the various sector-specific systems
                          used for human, animal, and plant health surveillance; environmental
                          monitoring of air, agriculture, water, and food; and intelligence and threat
                          analysis. Such data will be digitally fed into the system, integrated and
                          illustrated based on defined ontologies,1 analyzed using specific analytical
                          tools, and then disseminated via a web portal. The data flow will be bi-
                          directional, taking the sector-specific information from the relevant agencies
                          and fusing it to provide comprehensive situational awareness back to the
                          agencies. By correlating “subthreshold” data across the various sectors, NBIS
                          can help ensure earlier recognition of biologically significant information and
                          events that otherwise might not be reported beyond the originating agency.
                          NBIS will incorporate rules, based on participating agency restrictions, to
                          ensure protection of the information shared. Figure 1 provides a depiction of
                          the NBIS data flow, as initially designed.




1
 Ontologies are data models that represent a set of concepts within a system domain and the relationships between those
concepts.

                 Better Management Needed for the National Bio-Surveillance Integration System Program

                                                         Page 3
        Figure 1: NBIS Operating Environment

        NBIS will employ an open architecture using off-the-shelf tools and
        technologies, and operate at the top secret, secret, and sensitive-but-
        unclassified levels. The system will be flexible enough to join the disparate
        underlying IT systems and languages to provide a biological common
        operating picture (BCOP) for the world. This BCOP will assist in detecting
        anomalies or abnormalities caused by intentional or natural biological events.
        Figure 2 provides an illustration of the BCOP, highlighting how the data from
        the various sectors will be fused to identify biological patterns and trends, and
        provide actionable intelligence to facilitate national decisionmaking and
        timely response.




Better Management Needed for the National Bio-Surveillance Integration System Program

                                       Page 4
                         Figure 2: NBIS Program Depiction of the BCOP

                         The Government Accountability Office (GAO) discussed NBIS in its June
                         2005 report, which focused on federal activities and ongoing IT initiatives
                         related to public health and agricultural infrastructure.2 GAO reported that
                         while the Centers for Disease Control and Prevention, Department of Health
                         and Human Services, and DHS each have made progress in their respective
                         public health IT initiatives, many challenges remain:

                             •    Integrating current initiatives into a national health IT strategy and
                                  federal architecture to reduce the risk of duplicative efforts;
                             •    Developing and adopting consistent standards to encourage
                                  interoperability;
                             •    Coordinating initiatives with state and local agencies to improve the
                                  public health infrastructure; and
                             •    Overcoming federal IT management weaknesses to improve progress
                                  on IT initiatives.

                         As such, GAO recommended that DHS assess the alignment of its two bio-
                         surveillance initiatives, BioWatch and NBIS, with those of other federal
                         organizations.

2
 Information Technology: Federal Agencies Face Challenges in Implementing Initiatives to Improve Public Health
Infrastructure, U.S. Government Accountability Office (GAO-05-308, June 2005).

                Better Management Needed for the National Bio-Surveillance Integration System Program

                                                       Page 5
Results of Audit
     Program Leadership and Support
                  The NBIS program has not had the sustained leadership and priority needed to
                  ensure continued progress toward achieving bio-surveillance systems
                  integration goals. Although the program began with a clear mandate, strong
                  support, and a strategy for accomplishing the presidential direction, for
                  various reasons NBIS ownership has shifted among department organizations
                  numerous times, with corresponding fluctuations in the program approach,
                  priority, and accomplishments. In addition, NBIS has struggled since its
                  inception to secure the staff needed to manage program activities effectively.

                  Repeated Changes in Program Ownership and Direction

                  Sustained leadership and direction are critical to ensure continued
                  advancement of any IT program or improvement initiative. Senior executives
                  have a major role to play in clearly assigning program sponsorship and
                  holding managers accountable for leading the IT change process. With such
                  leadership support, program managers can then move forward in establishing
                  the management organizations, securing the resources, and guiding the
                  directions and steps toward successfully accomplishing program objectives.
                  Maintaining a consistent management structure and approach throughout the
                  duration of a project can further ensure continuity toward meeting program
                  goals.

                  However, the NBIS program has not had the benefit of sustained program
                  leadership and priority. Although the program began with a clear mandate,
                  strong support, and a strategy for accomplishing the presidential direction, for
                  various reasons NBIS ownership since has shifted among department
                  organizations numerous times, with corresponding fluctuations in the program
                  approach, priority, and accomplishments. Figure 3 shows the repeated
                  changes in NBIS sponsorship since the program’s inception in 2004.


                    NBIS Ownership 2004-present

                            2004                   2005                  2006                      2007
                                                                                      Office of Chief
                            Science and                                                                 Office of
                                                IAIP                                  Medical Officer
                            Technology                     Preparedness Directorate                      Health
                                             Directorate                              (Preparedness
                            Directorate                                                                  Affairs
                                                                                       Directorate)



                  Figure 3: NBIS Ownership and Program Transitions


          Better Management Needed for the National Bio-Surveillance Integration System Program

                                                 Page 6
                 Initial Science and Technology Accomplishments

        NBIS initially flourished under the leadership of the Science and Technology
        Directorate. In early 2004, DHS assigned the initial design work for this new
        effort to the directorate because, at the time, it had the technical knowledge
        and resources necessary to effectively undertake a public health program.
        Science and Technology was working daily with federal stakeholders on other
        bio-surveillance initiatives, such as the BioWatch program. The directorate
        used the contacts and experience gained through such programs to help
        identify an approach to developing an integrated bio-surveillance system.
        Specifically, the directorate held meetings with senior officials of the various
        federal stakeholders to determine the feasibility of a new system and draft a
        statement of work. During these meetings, the directorate also discussed
        scenarios for NBIS operations, data sharing challenges, and steps toward
        forging interagency cooperative agreements.

        Under Science and Technology direction, the program made good first steps
        in initiating system design. Since funds had yet to be appropriated for the
        NBIS program, in July 2004, Science and Technology used $1.686 million of
        its budget to contract for the initial architecture design study, known as NBIS
        1.0. Science and Technology coordinated meetings with interagency
        representatives to obtain their assistance in evaluating vendor proposals and
        making the contract award decision. Subsequently, the stakeholders also
        assisted the contractor in formulating general system requirements and
        participated in a series of system design reviews to help validate these
        requirements. All such activities served to build a sense of community among
        federal agency participants.

                 Program Changes Under IAIP

        Due to its transfer to the former Information Analysis and Infrastructure
        Protection (IAIP) Directorate in January 2005, the NBIS program lost
        momentum generated during the Science and Technology design study phase.
        The program appointed a new program manager, a contractor to oversee NBIS
        development, but this official had minimal assistance. Because the program
        received limited office space, the program manager was hindered in efforts to
        bring on board additional staff or detailees to assist with activities such as
        stakeholder outreach, contract management, and information analysis. Also,
        although the program manager suggested awarding a sole source contract to
        expedite development of the IT system, NBIS 2.0, DHS determined that the
        contract should be competitively bid to ensure it was awarded fairly and
        objectively. The additional time required to competitively bid the contract
        contributed to delays in NBIS 2.0 development.



Better Management Needed for the National Bio-Surveillance Integration System Program

                                       Page 7
                 Increased Priority, But Contract Challenges Remained Under
                 Preparedness

        The NBIS program received limited attention in the initial months after being
        reassigned from IAIP to the new Preparedness Directorate (Preparedness).
        This directorate, focused on preparedness and response, was one of three
        organizations established after DHS reorganized IAIP in July 2005. Program
        management attempted to encourage program progress in August 2005 by
        awarding a contract, at a cost of about $123,000, for development of a
        prototype system known as NBIS Lite. This prototype was a basic database
        designed to receive and store bio-surveillance data from open sources, such as
        ARGUS, an information gathering tool sponsored by Georgetown University.
        ARGUS integrates and catalogs biological indicators and threat warnings
        gathered from open source information, such as news releases, reports, or
        other publicly available media.

        The contractor created and demonstrated the prototype system, which also
        received initial authority to operate on the DHS network. However, NBIS
        Lite had limited capability and was not robust enough for widespread use.
        The program needed additional funding for a follow-on development contract
        to achieve full functionality. Program managers awarded the follow-on
        contract in August 2006, but ultimately decided not to proceed with this effort
        after progress was concurrently made in getting the full-scale system, NBIS
        2.0, in place.

        The Administration’s spotlight on bio-defense and pandemic issues helped
        ensure increased priority and leadership attention for the NBIS program.
        Specifically, in a November 1, 2005, speech at the National Institutes of
        Health, the President discussed his bio-surveillance initiatives, including
        NBIS, capturing the attention of senior Preparedness officials. (See Figure 4.)
        Program officials said that prior to the President’s speech, they sensed no
        urgency by Preparedness leadership to promote a functioning NBIS program.
        However, following the President’s speech, the program received additional
        support in terms of office space and contract personnel. For example, an
        NBIS management official explained that the program was assigned office
        space in a secure location, affording program management not only ample
        room to work and house additional staff, but also the facilities needed to
        handle potentially sensitive bio-defense information. Further, existing
        contract vehicles were used to bring contract staff on board to support NBIS
        program activities.




Better Management Needed for the National Bio-Surveillance Integration System Program

                                       Page 8
                 To strengthen domestic surveillance, my administration is launching
                 the National Bio-surveillance Initiative. This initiative will help us
                 rapidly detect, quantify and respond to outbreaks of disease in humans
                 and animals, and deliver information quickly to state, and local, and
                 national and international public health officials. By creating systems
                 that provide continuous situational awareness, we're more likely to be
                 able to stop, slow, or limit the spread of the pandemic and save
                 American lives.

        Figure 4: President G.W. Bush Speaking on Pandemic Influenza



        With the added support, the program manager was able to move the program
        forward in a number of ways. Specifically, a new staff member was assigned
        to manage NBIS planning and policy formation, provide briefings to market
        the program, and initiate discussions with interagency stakeholders
        concerning the memoranda of understanding needed to govern their
        participation in the NBIS program. The program manager used the secure
        office space to establish a 24-hour watch capability. Watch staff were
        responsible for conducting nonstop research and analysis on biological events
        and their impacts worldwide, and producing bio-surveillance reports for DHS
        and federal agency stakeholders. Distributed daily and weekly, these
        situational reports included both new developments and updates on previously
        reported information. Further, another newly acquired employee with a
        biological science background assisted watch staff efforts by determining the
        types of data needed to perform bio-surveillance and developing catalogues
        that describe the protocols for and implications of reported outbreaks of
        various diseases. By late 2005, the NBIS program had distributed a first draft
        of the interagency memorandum of understanding for comment, developed an
        audience for its situational reports, and determined the types of information
        that NBIS, once implemented, should report to meet bio-defense mission
        needs.




Better Management Needed for the National Bio-Surveillance Integration System Program

                                       Page 9
        However, the additional resources alone were not adequate to help move the
        program forward to contract award without further setbacks. For example, as
        the NBIS program prepared in early 2006 to issue a request for proposals for
        NBIS 2.0 development, the Office of Procurement Operations assigned a new
        contracting officer to the program. This official tasked the NBIS program to
        refine the proposal language, thereby delaying the contract by several months.
        Moreover, in February 2006 when the program was ready to issue a request
        for bid, the Office of Procurement Operations decided to use the department’s
        new Enterprise Acquisition Gateway for Leading Edge Solutions program to
        award the NBIS 2.0 contract, even though DHS had not yet finalized this
        contract vehicle. DHS will use the Enterprise Acquisition Gateway for
        Leading Edge Solutions contract vehicle to purchase a range of IT services to
        support the department’s mission of securing the homeland. This contract
        vehicle constitutes DHS’ preferred method to obtain end-to-end solutions for
        IT development, deployment, operations, and maintenance. Because NBIS
        2.0 was the first contract awarded using this vehicle, significant revisions
        were required to restructure the contract to meet the new documentation
        format. This rework delayed the contract by a few more months.

        The Preparedness Directorate assigned a full-time employee to help overcome
        these challenges and prepare the NBIS program for projected transition to the
        Office of the Chief Medical Officer. Recognizing that program funding
        would no longer be available once appropriations expired by the end of the
        fiscal year, the program manager gave priority attention to working with the
        Office of Procurement Operations and closely monitoring contract
        management processes to get the NBIS 2.0 contract in place. On
        September 28, 2006, DHS finally succeeded in awarding a $14.3 million
        contract for NBIS 2.0 development—albeit well over a year after the contract
        award time frame anticipated when the program first began.

                 Program Redirected Again Under Office of Chief Medical Officer

        Concurrent with NBIS 2.0 contract award, program ownership shifted once
        again. This time, DHS moved NBIS to the Office of the Chief Medical
        Officer (OCMO), where the program focus changed to become more medical-
        based and risk-averse in sharing information, versus the prior emphasis on
        situational awareness and response under Preparedness. In line with the new
        focus, the NBIS program decided to seek personnel with medical training and
        public health knowledge and expertise to staff the 24-hour watch capability.
        Despite positive feedback from stakeholders who had received the
        publications, in October 2006, OCMO management decided to stop
        distributing the situational awareness reports begun in 2005 under
        Preparedness. Although several stakeholders appreciated the publications,
        OCMO officials said that they included inconsistent interagency input,
        provided little or no medical oversight, and contained inaccuracies, as
        reported by subject matter experts.
Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 10
        Despite the changes in program focus, the NBIS program benefited from
        increased senior-level support and priority under OCMO. For example, the
        Chief Medical Officer assigned a new director and program manager for
        NBIS, and instructed the director to give the program top priority. With this
        heightened support, the program director and manager have been able to
        pursue additional personnel to assist with program development. Principally,
        this has included hiring contractors to support watch operations, conduct
        stakeholder outreach, and manage program activities.

        The NBIS program received even greater visibility when OCMO was elevated
        within DHS in March 2007 to form part of the newly created Office of Health
        Affairs (OHA). This shift consolidated NBIS and other biological and
        chemical threat programs, such as BioWatch, under one office, reporting
        directly to the DHS Secretary and Deputy Secretary. The NBIS program
        manager said that the Secretary is optimistic about NBIS; program officials
        are scheduled to brief the Secretary every 90 days on program progress. As a
        sign of support for OHA’s authority in managing bio-threat programs, the
        President has requested an increase in the office’s funding, from $5 million in
        FY 2007 to $118 million in FY 2008.

        Program Staffing

        Leading organizations assign adequate human resources to help ensure
        successful accomplishment of their IT initiatives. However, with NBIS
        experiencing inconsistent leadership, the program has struggled since its
        inception to secure the staff needed to manage program activities effectively.

        For example, it was not until May 2006, when the program was under the
        auspices of Preparedness, that a full-time DHS program manager was
        assigned. Prior to this time, for about one and half years, the program was led
        by a detailee, who encountered roadblocks in obtaining needed information
        and working through unfamiliar DHS processes to carry out assigned program
        management responsibilities. As an external agency employee, this official
        also had problems getting the hiring authority to bring additional staff into
        DHS. This official, along with subsequent NBIS program managers, needed
        personnel of all types—full-time government employees, detailees, and
        contractors—to help support the program.

        Initially, NBIS sought interagency detailees to manage program activities, but
        arranging to bring them on board was problematic. For example, despite
        assurances from senior leadership that temporary staff would be made
        available, the first NBIS program manager, who was also a detailee, faced
        barriers to acquiring other detailees to support program efforts. First, the
        general shortage of personnel meant a lack of staff to develop and coordinate

Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 11
        the interagency agreements needed to govern the personnel exchanges.
        Second, the agencies that considered lending personnel to DHS to support
        NBIS would not agree to do so until sufficient office space was arranged to
        house them. DHS had not yet provided the NBIS program the office space
        needed.

        NBIS also has looked to contractor personnel as an alternative means of
        staffing. As previously discussed, following the President’s speech in
        November 2005 that drew priority attention to the program, there was an
        influx of contractors to assist with the NBIS program. Specifically, the
        program used existing contract vehicles to bring in 8-10 contract staff. These
        contractors helped support the NBIS watch capability, reporting, stakeholder
        outreach, and IT contract management. Since that time, additional contractors
        have been added to assist with program management activities such as
        planning, policy formulation, outreach, and coordination of interagency
        agreements on data sharing and personnel exchanges with federal
        stakeholders.

        Although the contractor support has been beneficial, the program still needs
        adequate full-time federal employees to oversee contractor activities. This
        need for additional employees was documented in the September 2006 “OMB
        300” program business case, which advised hiring additional full-time
        program staff. Further, the NBIS program lacked specialized personnel in
        several key areas. For example, the program does not have sufficient staff,
        such as public health officials, to analyze and process biological information.
        The program has not fully staffed analyst positions needed to provide
        expertise in reviewing and interpreting NBIS information on the range of
        agriculture, human, and environmental matters. The program also needs a
        staff representative to coordinate with the intelligence community and gain
        access to the information needed for bio-surveillance analysis and reporting.
        The statement of work says that NBIS 2.0 should integrate intelligence data
        into the system. However, the staff member with biological and defense
        subject matter expertise who initially served as liaison to coordinate such
        matters left the program in late 2006 and has not yet been replaced.

        These staffing challenges have been complicated by high turnover rates
        among the staff positions that the program did acquire. For example, the
        program has had four program managers since its inception. For the most
        part, turnover among these officials was due to changes in program
        ownership. It nonetheless has resulted in a loss of institutional knowledge and
        a lack of continuity in program management direction. For example, whereas
        the Preparedness program manager promoted collaboration and teamwork,
        OCMO program managers have guided the various aspects of the program in
        more of a “stovepipe” manner. Disconnected from the technical management
        aspects of the program due to the stovepipes, one official said that NBIS staff

Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 12
        no longer have a good understanding of the direction in which the program is
        headed.

        In recent months, the NBIS director responsible for governing the program
        within OCMO acknowledged that the program needs more staff resources and
        cannot continue to run primarily on a contractor supported basis. The
        program manager said that although OHA management approved hiring seven
        additional full-time employees to oversee functional program areas, the office
        delayed announcing these positions until after March 31, 2007, when its new
        organization became official. Specifically, OHA approved the billets for GS-
        14 and GS-15 federal employees in each of its four divisions: Program
        Management, Administration, and Business Support; Operations; Plans,
        Policy, and Outreach; and Information Technology. As of April 2007, these
        vacancies had not yet been announced. Until these inherently government
        positions are filled, the program will continue to rely on contractors to fill the
        void. Figure 5 displays the current organization chart for the NBIS program,
        showing full-time staff positions as well as vacancies.


                                                          NBIS Director




                                                              NBIS Deputy
                                                                Director




           Program Management
                                                Operations                  Plans, Policy and        Information
            Administration and
                                               GS-15 (Vacant)                   Outreach             Technology
             Business Support
                                                                             GS-15 (Vacant)         GS-15 (Vacant)
              GS-15 (Vacant)


           -   GS-14 (Vacant)
                                                                                                -   GS-14 (Vacant)
           -   3 Staff Positions                                        -   GS-14 (Vacant)
                                                                                                -   2 Staff Positions
                    1 Pending                                           -   3 Staff Positions
                                                                                                         1 Vacant
                    1 Vacant


                                     Analysts
                                                                  Watch
                             -     5 Staff Positions
                                                          -    6 Staff Positions
                                    1 Pending
                                                                 1 Vacant
                                     3 Vacant


        Figure 5: NBIS Organization Chart, as of March 2007




Better Management Needed for the National Bio-Surveillance Integration System Program

                                                Page 13
NBIS Program Execution
            Because of repeated changes in program leadership and direction, and a need
            for staff support, DHS has not effectively executed the NBIS program. A
            number of the planning documents needed to guide IT development have yet
            to be finalized. Further, NBIS program management has not effectively
            communicated and coordinated with stakeholders to secure their commitment
            to provide the data and personnel needed to support system development.
            Key security and privacy issues related to bio-surveillance data sharing remain
            unaddressed. Additionally, program management did not provide the
            contractor with adequate guidance, requirements input, or data sources to
            deliver a fully functional system. As such, the contractor may not fulfill the
            system capability and schedule requirements for NBIS development, which
            potentially could result in cost increases to the program.

            Program Planning

            The Government Performance and Results Act of 1993 (Section 2, Findings
            and Purposes, Public Law 103-62) was enacted to help federal managers
            improve service delivery by requiring that they plan for meeting program
            objectives. Program planning should include a description of how goals and
            objectives are to be achieved, as well as details on the operational processes,
            human capital, information, technology, and other resources needed to meet
            those goals. Where program goals are insufficiently articulated, federal
            managers are seriously disadvantaged in their efforts to improve program
            efficiency and effectiveness.

            Despite such guidance, planning to support the NBIS program has not been
            adequate. In September 2006, Preparedness officials submitted a business
            case to the Office of Management and Budget to justify the investment and
            establish the NBIS program framework. This business case outlines the NBIS
            vision for developing a collaboration tool to complement and interoperate
            with existing bio-surveillance systems of other federal government agencies.
            The business case and supporting documentation also discuss at a high-level
            the strategic goals, milestones, costs, staffing levels, and performance
            measures for accomplishing the program. As such, the business case provides
            the foundation for additional, more detailed planning by which to guide the
            program.

            However, NBIS does not have an up-to-date plan at the tactical, more detailed
            level for managing day-to-day program activities in support of system
            development. In September 2006, concurrent with developing the business
            case, Preparedness officials began drafting a program plan for NBIS. The
            draft includes limited discussion of the end-state for NBIS; how the system
            will operate to collect, collate, and provide context for bio-surveillance
    Better Management Needed for the National Bio-Surveillance Integration System Program

                                          Page 14
        information; and the tools that will be integrated into the system to expand
        situational awareness. However, NBIS transferred to OCMO before the
        program officials who began drafting the plan could complete it or get it
        approved.

        Initially, OCMO did not focus on creating an approved program plan given
        competing priorities, such as securing staff resources and data sharing
        agreements. At the time, the office did not have the staff available to devote
        to planning activities; the program manager was working alone to carry out a
        range of program activities, such as stakeholder outreach and defining
        requirements, which consumed his time. However, as of March 2007, the
        NBIS program plan was still in draft.

        Without a tactical plan to guide program directions and decisions, NBIS
        program managers have been managing in an ad hoc manner. For example,
        without clear program milestones, NBIS managers have been unable to track
        accomplishment of program activities or monitor progress toward meeting
        long-term goals. An NBIS official cautioned that the program must first
        define its “as is” and “to be” architectures before management can establish
        milestones for measuring program progress.

        Recognizing the potential consequences of inadequate plans to guide program
        activities and decisions, NBIS officials have recently taken steps to correct
        this situation. For example, in April 2007, program branch chiefs hosted an
        off-site workshop to address program priorities. The goals of this workshop
        were to develop functional descriptions of staff roles and responsibilities, a
        mission statement for at least one program division (Operations), an
        organization chart, and a master schedule of program development milestones.
        The branch chiefs also developed a strategy for improved communication and
        coordination in conducting program activities. Further, the branch chiefs
        discussed how NBIS fits into the overarching DHS enterprise architecture
        goals and worked to finalize an NBIS concept of operations. Program
        managers have initiated similar discussions to define the final capabilities for
        the system, including what information NBIS should acquire, and what
        outputs it should offer.

        Outreach to Ensure Stakeholder Involvement

        A major concept of HSPD-9 and -10 is that DHS should coordinate with other
        federal agencies to create a coordinated biological threat awareness and
        detection capability. Similarly, a supplement to Office of Management and
        Budget Circular A-11 directs federal agencies to reduce project risk by
        involving stakeholders in the requirements definition process to ensure that IT



Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 15
                         assets meet mission and user needs.3 Further, a task order request pursuant to
                         the NBIS 2.0 contract also encourages user cooperation in the iterative and
                         incremental system development process.

                                 Initial Outreach To Federal Agency Stakeholders

                         In 2004, Science and Technology began NBIS outreach activities by hosting a
                         series of meetings to involve federal agency stakeholders in early system
                         design planning and review. An NBIS management official said that
                         approximately 40 representatives from a range of stakeholder organizations
                         attended these sessions. One stakeholder said that program officials used
                         these meetings to discuss NBIS goals and how the system would operate to
                         meet the needs of the user community. Subsequently, in 2005, NBIS hosted
                         tabletop exercises and planning meetings with stakeholders to consider
                         biological event scenarios and provide updates on NBIS program activities.
                         Collectively, these meetings helped forge broad interagency cooperation,
                         develop trust, and ensure buy-in for the NBIS approach.

                         As previously discussed, situational reports distributed to DHS components
                         and other federal, state, and local agencies on a routine basis during 2005 and
                         2006 also facilitated communications and coordination with NBIS
                         stakeholders. The 24-hour watch function, established to monitor biological
                         events worldwide, helped produced the daily reports. The watch officers
                         would research and compile information on the pathogens and then draft the
                         reports. The reports were then reviewed for content and edited, and upon
                         approval, disseminated to stakeholders in the afternoon. Along with NBIS
                         program officials and DHS component representatives, a number of federal
                         agencies participated or provided routine input in the process of reviewing and
                         finalizing the reports. This process generally yielded two different types of
                         reports: publications on outbreaks of general diseases such as E. Coli or
                         salmonella, and supplemental information on avian influenza.

                         According to NBIS officials, stakeholders found the reports highly useful in
                         that they provided broader, more in-depth coverage than other existing
                         sources. The reports were important to advancing the NBIS approach of
                         integrating bio-surveillance information in one central location. The reports
                         also heightened trust in sharing information and raised expectations among
                         stakeholders that they would continue to receive some sort of NBIS product or
                         publication while system development was ongoing.




3
 Office of Management and Budget Circular No. A-11, Part 7, Planning Budgeting, Acquisition, and Management of
Capital Assets, Executive Office of the President, Supplement, June 2006.

                Better Management Needed for the National Bio-Surveillance Integration System Program

                                                      Page 16
                 Communication and Coordination Needed to Sustain
                 Stakeholder Commitment

        As NBIS ownership was transferred from one DHS component to the next,
        continuity of operations was disrupted. For example, one federal agency
        representative told us that each time there was a change, the new program
        leadership had to be reeducated on the inner workings of the stakeholder
        agency, creating a sense that no progress was being made in NBIS
        development. Further, the new program managers did not ensure effective
        communications to sustain working relationships with federal agency
        stakeholders. As successive management teams introduced new processes and
        approaches to accomplishing NBIS development, the mission and vision for
        the interagency system became less clear and agency stakeholders struggled to
        keep up with the transitions. Disengaged and lacking communications from
        program officials, agencies had no effective means of keeping abreast of
        program direction and status. During lengthy communication lapses in 2005,
        several stakeholders questioned whether NBIS was still being developed at
        all. Moreover, when U.S. Department of Agriculture representatives offered
        help in developing interagency agreements to move the program forward,
        NBIS managers did not follow up or communicate effectively to accept their
        offer. Given the lack of communications to keep them engaged, federal
        stakeholders’ commitment and support for the NBIS program declined. As
        the program lost credibility, stakeholders began to doubt that anything would
        ever result from the initiative.

        Conversely, coordination with NBIS in some areas helped stimulate internal
        federal agency efforts to improve systems and processes for managing bio-
        surveillance information. For example, the Department of Agriculture is
        creating an NBIS-like system that will integrate, analyze, and monitor
        agriculture and food safety data maintained in its various subagency systems.
        Proof of concept for this system was scheduled for March-April 2007.
        Similarly, in September 2000, the Food and Drug Administration began
        developing an integrated, web-based, information network to allow health
        officials engaged in food safety activities at multiple government agencies to
        compare, share, and coordinate laboratory analysis findings. These two
        agencies have not yet determined how these systems will potentially share
        information with NBIS.

                 Coordination with Stakeholders on Data Sharing

        NBIS program managers have not effectively coordinated with interagency
        stakeholders on the data resources needed to support IT system development.
        In 2004, NBIS officials began high-level discussions with interagency
        stakeholders concerning establishing partnership agreements, as well as
        determining the types of data needed to support system operations. Despite

Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 17
                         these initial communications on data sharing matters, there was little follow
                         up with stakeholders to refine the details. As program officials focused
                         increasingly on getting the NBIS 2.0 contract in place and managing the
                         repeated transfers of program ownership, the data issues received less
                         attention. According to stakeholders, NBIS program managers still had not
                         defined the details as to what data would be needed and how it would be
                         supplied to NBIS. One official said that NBIS managers had not conducted an
                         information needs assessment to define specific data requirements to support
                         system operations.

                         After the NBIS 2.0 contract was awarded in September 2006, the need for
                         data once again came to the fore. By this time, the contactor had begun
                         system development and needed interagency bio-surveillance information to
                         populate NBIS and test its operations. Because the task order request
                         promised that data would be available, NBIS program managers reached out
                         once again to agencies to put data sharing agreements in place. Specifically,
                         the approach was to draft broad memoranda of understanding on stakeholder
                         participation, get the memos signed, and then determine the details later.
                         Subsequent interagency agreements would be used to govern the details of the
                         data sharing arrangements, i.e., what data would be shared and through what
                         means, along with such matters as the exchange of personnel, information
                         security, and IT systems interfaces. The Chief Medical Officer transmitted a
                         memorandum of understanding signed by the DHS Deputy Secretary to
                         stakeholders on December 26, 2006. By February 2007, five agencies4 had
                         agreed to sign the document and participate in the program.

                         However, subsequent efforts by NBIS program officials to work out the
                         details of these interagency partnerships were not effective. Specifically, in
                         January 2007, NBIS officials requested meetings with the Departments of
                         Defense and Interior, two key stakeholder agencies, to establish data sharing
                         arrangements as a prelude to forging interagency agreements. However,
                         program officials held the meeting with Defense representatives without first
                         identifying NBIS data needs to support a meaningful discussion as to what
                         information the agency might provide. A Defense official said that NBIS
                         program officials needed to schedule a follow up meeting for a later date, after
                         they had more specifics about NBIS data requirements. As of late March
                         2007, program officials had not yet reached agreement with any federal
                         stakeholders on when and how data would be supplied to support system
                         operations.

                         In the absence of interagency agreements, program officials have not been
                         able to secure the federal data needed to test or develop the NBIS system. To
                         proceed with some level of system development until the federal data is

4
 The five agencies included; U.S. Department of Agriculture, Department of Defense, Department of Health and Human
Services, Department of the Interior, and Department of State.
                Better Management Needed for the National Bio-Surveillance Integration System Program

                                                      Page 18
        acquired, the program pursued open source information to populate the NBIS
        database. As a result, as of March 2007, the NBIS system contained only
        publicly available information, such as reports from the World Health
        Organization, the Organization for Animal Health, and the European
        Commission, which can be obtained via the internet. This approach to using
        open source data has helped further NBIS 2.0 development activities;
        however, it has not fulfilled HSPD guidance for integrating the bio-
        surveillance information of the various federal agencies.

        In attempts to get back on track, NBIS program officials have modified their
        approach to acquiring bio-surveillance data once again. Specifically, in
        March 2007, NBIS staff met with contractor representatives to develop a two-
        tiered approach to securing data sources. This approach involves continued
        use of open source data, but concurrent pursuit of federal information, which
        will take more time to acquire. NBIS officials said that priority remains on
        ensuring access to federal data sources. Officials said that with this approach,
        they can increase the amount of data provided to NBIS and also advance
        system development efforts.

                 Information Security and Privacy Concerns

        In conjunction with not getting the data sharing agreements in place, NBIS
        officials also did not effectively coordinate with federal stakeholders to
        address concerns about the privacy and security of data shared. Without
        NBIS program officials first defining what information NBIS needs, there is
        little basis for stakeholders to determine what information might be released
        by their agencies. For example, one stakeholder said that any release of
        sensitive or inaccurate information about U.S. agricultural products could
        have serious repercussions on exports and trade. Other stakeholders
        expressed similar concerns about releasing human health data. For example, a
        stakeholder said that, according to the Health Information Portability and
        Accountability Act of 1996, Public Law 104-191, information on human
        populations generally cannot be shared outside of the public health
        community without prior authorization.

        Interagency agreements can help outline basic data handling procedures and
        prescribe the measures that partner agencies should take to ensure the security
        of shared data. NBIS program officials have developed a general interagency
        agreement to address these information security and privacy issues. NBIS
        officials plan to use the draft agreement as a mechanism for coordinating with
        stakeholders on what systems will feed NBIS. As of March 2007, however,
        this document was still in draft and had not been finalized with any
        stakeholder agency. Until the NBIS program coordinates these issues,
        officials cannot know the full range of privacy and information security
        implications for each agency data source.

Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 19
        Guidance for Contractor Efforts

        Office of Management and Budget Circular A-11 directs agencies to employ
        good management disciplines to ensure that programs achieve intended cost,
        schedule, and performance outcomes. More specifically, the circular directs
        federal agencies to provide clear guidance and support to ensure contractor
        activities and products deliver intended benefits. Further, agencies are to
        reduce project risk by involving stakeholders in the requirements definition
        process to ensure that IT assets meet mission and user needs.

                 Functional System Requirements

        NBIS program management did not provide the contractor with adequate
        guidance to support system development activities. NBIS 2.0 was proposed
        as an iterative developmental system, for which methods, requirements, and
        data sources were to be identified in the course of system development. As
        such, program management established general system requirements at the
        outset, but tasked the contractor to develop more detailed requirements as the
        program evolved. Specifically, the task order request includes a broad
        statement of objectives regarding what the system is intended to do to enhance
        detection and awareness of biological events and support the exchange of bio-
        surveillance information among agencies.

        The task order request also addresses high-level technical requirements that
        NBIS integrate stakeholder systems, be bi-directional to provide
        comprehensive situational awareness back to the agencies, and ensure
        protection of the information shared based on participating agency
        restrictions. The document does not provide detailed procedures on how the
        contractor is to develop the system to meet these requirements; rather, the
        contractor is to outline these strategies for subsequent DHS approval. As
        system development activities progress, NBIS program management is to
        incrementally provide additional guidance to support contractor efforts and
        ensure complete coverage of the statement of objectives.

        Based on the limited guidance, the contractor proceeded to outline a statement
        of work, program management plan, quality assurance plan, configuration
        management plan, risk management plan, and implementation plan for
        moving forward. The contractor also created a basic framework for NBIS to
        demonstrate limited system capabilities. However, NBIS management did not
        provide the supplemental guidance as promised to support continued
        contractor efforts. Specifically, NBIS management did not provide a concept
        of operations, outlining the strategies, policies, and operational processes for
        implementing the system with full functionality. This document was due to
        the contractor at the time of contract award in September 2006. The
        contractor’s monthly earned value reports for NBIS 2.0 development, from
        October 2006 through February 2007, identified the continued lack of this
Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 20
        document as a risk to system development. As of April 2007, NBIS program
        management had not officially approved a concept of operations; the
        document had undergone several iterations and was still under review.

                 User Requirements

        Although user input is critical to the requirements definition process, NBIS
        management also did not ensure that subject matter expert personnel were
        available to support the development effort. The contractors needed user
        input to understand how to automate routine business processes for analyzing
        bio-surveillance information. For example, contractors needed to know
        frequently used sources for such information, types of data needed to perform
        analysis, and the content and structure of reports generated to share bio-
        surveillance information among the user community. As such, the contractor
        expressed an interest in October 2006 in meeting with NBIS watch officers to
        discuss how they might use the system. The contractors also wanted to meet
        with interagency analysts to determine how the system might be developed to
        address their individual agency requirements.

        Although the contractors began NBIS 2.0 development in October 2006, they
        were not able to obtain any form of interagency user input until April 2007
        when NBIS program managers held focus group sessions with interagency
        representatives to discuss their user needs. Up until that time, new NBIS
        program management focused on competing program management activities
        such as acquiring staff and securing access to the data needed for system
        development. Additionally, as previously discussed, NBIS program managers
        had not established the interagency agreements needed to secure interagency
        participation in defining NBIS 2.0 user needs. In April 2007, however,
        recognizing the contractors’ need for user requirements to support achieving
        full operating capability by September 2008, NBIS program management
        finally brought users in from selected stakeholder organizations to dialogue
        openly on what they expected from the system.

        Similarly, internal DHS end users have had only limited involvement in
        defining user requirements. NBIS contractors expected to meet with watch
        officers and subject matter experts that the program intended to bring on
        board. However, the subject matter experts, who would use NBIS tools to
        perform bio-surveillance information monitoring on a daily basis, had not yet
        been hired. Watch officers were the only potential users of the system already
        in place. Nonetheless, in January 2007, the program manager told us of a
        decision to have NBIS administrative and management personnel, acting as
        users, meet with the contractor to provide user requirements instead. Program
        management ultimately coordinated a meeting between the contractor and
        watch officers in March 2007 but, for the most part, NBIS administrative and


Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 21
                          management personnel will continue to be the primary source for user
                          requirements.

                                   Delays in Providing Needed Data Resources

                          NBIS program officials were not timely in providing the contractor with the
                          federal data resources they needed to support system development. For each
                          of the first two phases of NBIS 2.0 development after contract award in
                          September 2006, the contractor requested that NBIS program officials provide
                          three data sources for use in populating and testing the system. The first time,
                          program management responded by identifying two sources, the Global
                          Disaster Alert and Coordination System, and EpiSpider ProMed, which
                          provide biological or medical surveillance data via the internet. The two
                          sources were integrated into the system in time for the initial NBIS 2.0
                          demonstration in January 2007. Program management was not able to execute
                          the nondisclosure agreements necessary to use a third source, Georgetown
                          University’s ARGUS information gathering tool.

                          Further, NBIS program management was late in providing the contractor with
                          three additional data sources needed for the second phase of system
                          development, which began in November 2006. The contractor had requested
                          that NBIS management arrange access to those sources by late January 2007;
                          however, NBIS program managers did not officially approach the owners of
                          two identified data sources, Wildlife Mortality Database (EPIZOO) and
                          Electronic Surveillance System for the Early Notification of Community-
                          Based Epidemic (ESSENCE), until that same month.5 At that time, NBIS
                          managers learned that they could neither arrange data access to meet the
                          January 2007 deadline, nor ensure a date as to when access would be possible.
                          Due to the delays in acquiring the sources, in March 2007 NBIS management
                          once again substituted open source data feeds to sustain development. This
                          was about two months later than the timeframe for which the contractor
                          needed to support system development. Additionally, program managers still
                          had not secured a nondisclosure agreement for contractor to access to
                          ARGUS, the third data source, by the January 2007 time frame.

                                   Contractor May Not Meet Schedule and Requirements for NBIS
                                   Development

                          Because program management did not provide adequate system guidance,
                          user input, and data sources to support system development activities, the
                          contractor has made limited progress in executing the NBIS 2.0 contract.

5
 EPIZOO is a U. S. Geological Survey database documenting over 25 years of information on epizootics (epidemics) in
wildlife. EPIZOO tracks die-offs throughout the United States and its territories, primarily among migratory birds and
endangered species. Further, ESSENCE is a prototype system developed by the Department of Defense for early
detection of human infectious disease outbreaks.
                 Better Management Needed for the National Bio-Surveillance Integration System Program

                                                        Page 22
        First, without clear guidance on system needs and functionalities, the
        contractor is spending valuable time and resources determining the system
        design, processes, and products needed to fulfill NBIS program objectives.
        For example, while the statement of objectives establishes broad guidance for
        NBIS to integrate, monitor, and analyze bio-surveillance information across
        federal agencies, the program office has not provided additional guidance or a
        concept of operations to guide contractor activities. As a result, the contractor
        has relied on its own in-house disease specialists to draft functional
        requirements, including how to structure and sort biological information
        supplied to the system—an approach that may not adequately satisfy NBIS
        mission requirements.

        Second, without user input the contractor was unable to gather and integrate
        DHS and stakeholder requirements in the initial demonstration of NBIS 2.0
        capabilities. Specifically, without the opportunity to interact with system
        users to determine their preferences regarding report format or content, the
        contractor could only present generic, analytical reports of bio-surveillance
        information as a part of its January 2007 NBIS 2.0 demonstration. Such
        reports provided a general illustration of what the system could produce, but
        may not be a true reflection of the types of NBIS products that users really
        need or want. It remains unclear as to whether or how user requirements will
        be incorporated at initial operating capability for NBIS 2.0, which is expected
        for June-July 2007.

        Third, the lack of federal data to support NBIS development has hindered
        contractor efforts in several ways. In particular, the contractor has been
        unable to build and test system functionality, such as how interagency
        information will flow within NBIS 2.0 and then be sorted, integrated, and
        analyzed to support government-wide bio-surveillance. Further, because DHS
        did not provide adequate data for the first stage of NBIS 2.0 development, the
        contractor had to develop a synthetic data set to support testing of the
        analytical tools needed for continued system development.

        Overall, because of the lack of data, the contractor has struggled to meet
        scheduled program milestones, which could have an adverse effect on contract
        costs. Specifically, initial operating capability for NBIS 2.0 was projected for
        April 2007; however, delays in receiving the data needed to ensure system
        functionality postponed delivery by approximately three months, to June-July
        2007. This delay is significant when combined with the fact that the system
        projected for delivery at this time may have limited functionality due to the
        lack of user input and adequate data sources. The contractor submitted an
        unofficial proposal, outlining suggestions for modifying the NBIS 2.0 contract
        and adjusting the system development schedule. As of April 2007, program
        management had not yet made a decision on this proposal. However, pushing
        back these interim dates could have the ultimate effect of delaying full

Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 23
        operational capability, the date when contractor is scheduled to deliver the
        system, which is set for March 2008. Further, an NBIS official said accepting
        the modifications could potentially increase the contract cost by $2.8 million,
        beyond the initial award cost of $14.3 million.

Recommendations
        We recommend that the Assistant Secretary and Chief Medical Officer of the
        Office of Health Affairs ensure that NBIS program management:

        Recommendation #1: Assess NBIS staffing needs and apply adequate
        resources to effectively oversee and support program management activities.

        Recommendation #2: Develop and implement a program plan identifying
        program activities, milestones, and outcomes needed to develop an integrated
        bio-surveillance system as required by HSPD-9 and -10.

        Recommendation #3: Develop a concept of operations, outlining functional
        and user requirements for NBIS 2.0 to the IT system contractor.

        Recommendation #4: Develop a plan aimed at improving NBIS outreach and
        communication with stakeholders to ensure commitment and participation in
        the creation of an integrated bio-surveillance system.

        Recommendation #5: Perform an information needs assessment, outlining
        interagency data content requirements to support NBIS 2.0 operational
        capability.

Management Comments and OIG Analysis
        We obtained written comments on a draft of this report from the Assistant
        Secretary and Chief Medical Officer for the Office of Health Affairs. We
        have included a copy of the comments in their entirety at Appendix B.

        In the comments, the Assistant Secretary concurred with all of the findings
        and recommendations in our report. The Assistant Secretary said that since
        the conclusion of the audit, significant accomplishments have been achieved
        that directly apply to the audit recommendations. In an attachment to these
        general comments, and in response to each of our report recommendations,
        the Assistant Secretary summarized progress that the NBIS program has
        made. We believe that such efforts are good steps toward addressing the
        various issues we raised in our report and look forward to learning more about
        continued progress and improvements in the future.



Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 24
        Responding to Recommendation 1, the Assistant Secretary commented that
        NBIS management has worked to address staffing issues since August 2006,
        and more recently, since the formation of the Office of Health Affairs.
        Specifically, NBIS management has assessed staffing needs through FY 2008,
        put a staffing plan into place, and requested resources for personnel to support
        NBIS activities. In addition, the Assistant Secretary explained that the NBIS
        program is working to hire government employees to fill positions, which
        have been occupied by contract personnel; the program has advertised four
        federal employee positions for management slots and selected seven members
        of the U.S. Public Health Service to provide improved expertise and
        continuity for the 24/7 watch function. Further, a contractor support
        assessment was conducted to identify the nature and extent of future
        contractor requirements.

        In response to Recommendation 2, regarding the need for a program plan, the
        Assistant Secretary indicated that the program has contracted a project
        manager to develop a master schedule, consisting of a work breakdown
        structure and a chart to track the project’s timelines. These documents outline
        tasks, deliverables, and timelines from January 2007 through full operational
        capability in September 2008. Also, the Assistant Secretary noted that these
        planning documents are updated weekly and tracked by the Secretary.

        The Assistant Secretary outlined various efforts to address Recommendation
        3, regarding development of a concept of operations. The Assistant Secretary
        acknowledged the importance of a cross-cutting concept of operations and, as
        result, has enlisted a contractor to develop this document. In addition, the
        program addressed certain system requirements by developing standardized
        daily reports for interagency partners. Further, the NBIS program will solicit
        input on the concept of operations from four interagency customer focus
        groups.

        The Assistant Secretary discussed NBIS’ commitment to outreach and
        communication with stakeholders to address Recommendation 4. The
        Assistant Secretary stated that an engagement plan is in place, which
        establishes milestones and timelines for memorandums of understanding and
        interagency agreements; these timelines are reflected in the program plan
        discussed above regarding Recommendation 2. In addition to the five
        agencies that have signed a memorandum of understanding with the NBIS
        program already, a sixth federal agency has since been added. Further, the
        Assistant Secretary stated that all remaining federal agencies designated as
        future NBIS partners have been positively engaged and briefed on NBIS, and
        involved in an Interagency Principals Working Group. Also, the NBIS
        leadership recognizes that any successful interagency effort requires
        justification beyond what is directed by a single HSPD, and they are focusing
        on active two-way communication between all federal partners to foster the

Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 25
        necessary understanding, willingness, and cooperation. Lastly, the Assistant
        Secretary stated that they are actively soliciting partner concerns,
        requirements, and needs to avoid communication lapses that might otherwise
        slow progress.

        Finally, in response to Recommendation 5 on performing an information
        needs assessment, the Assistant Secretary stated that direct engagement using
        focus groups and meetings with interagency partners to discuss applicable
        data content and feeds for NBIS 2.0 have resulted in refined requirements,
        enhanced understanding of program deliverables, and the near-term addition
        of comprehensive data sources to establish an integrated common operating
        picture. In addition, the NBIS program and the system development
        contractor are designing a Data Acquisition Strategy as part of an overarching
        transition plan to move the program from Initial Operational Capability to Full
        Operational Capability.




Better Management Needed for the National Bio-Surveillance Integration System Program

                                      Page 26
Appendix A
Purpose, Scope, and Methodology


                    As part of our ongoing responsibility to assess the efficiency, effectiveness,
                    and economy of departmental programs and operations, we conducted an
                    audit of the NBIS program. The objectives of our audit were to determine:

                         •   The efficacy of DHS’ plans, policies, and procedures for collaborating
                             with other federal, state, and local stakeholders to gather and share
                             bio-surveillance information via NBIS; and
                         •   Whether NBIS will meet user needs, information security
                             requirements, and privacy policies and procedures.

                    To establish criteria for this review, we researched U.S. laws, regulations, and
                    other federal guidance applicable to bio-surveillance initiatives.
                    Documentation, such as media articles and press releases obtained through
                    internet searches, provided background information on the NBIS program.
                    Additionally, we reviewed prior reports and congressional testimony by the
                    Government Accountability Office and industry organizations to learn more
                    about their findings and recommendations related to the NBIS program and
                    federal bio-surveillance initiatives.

                    We met with representatives from DHS’ Preparedness Directorate, Science
                    and Technology Directorate, Office of Intelligence and Analysis, and Office
                    of the Chief Medical Officer to learn about their roles, responsibilities, and
                    activities related to the NBIS program. Senior Preparedness officials provided
                    initial briefings on the program, and more specifically on NBIS and its
                    functionality. The NBIS program manager discussed with us the system
                    development process, as well as the incremental approach to implementing IT.
                    Current and former NBIS officials, along with other staff from the contractor
                    organization, Science Applications International Corporation, told us about
                    NBIS development, testing, plans for ensuring systems interoperability, and
                    end-user training. Additionally, these officials provided information on NBIS
                    contract requirements and performance measurement.

                    We also interviewed NBIS stakeholder representatives from the Department
                    of State, the United States Postal Service, the Centers for Disease Control and
                    Prevention, the Central Intelligence Agency, the U.S. Department of
                    Agriculture, the Department of Defense, the Department of Interior, the
                    Environmental Protection Agency, the Federal Bureau of Investigation, the
                    National Oceanic and Atmospheric Administration, the Department of
                    Veterans Affairs, the National Geospatial-Intelligence Agency, and
                    Georgetown University’s Imaging Science and Information System Center.
                    These officials offered their perspectives on NBIS program management
                    activities, communication with stakeholders, and strategies for sharing bio-
                    surveillance information. These officials also discussed their involvement in


            Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 27
Appendix A
Purpose, Scope, and Methodology


                    NBIS development activities and their views on the successes and possible
                    challenges that the program may face in the future.

                    We limited our work to the planning, requirements definition, and information
                    sharing activities ongoing during NBIS development at the time of our audit.
                    We did not observe systems testing or address classified aspects of the NBIS
                    program.

                    We conducted our audit from November 2006 through May 2007 in the
                    Washington, D.C. metropolitan area. We performed our work according to
                    generally accepted government audit standards. The principal OIG points of
                    contact for this audit are Frank Deffer, Assistant Inspector General,
                    Information Technology Audits, and Sondra McCauley, Director, Information
                    Management Division. Other major contributors are listed in Appendix C.




            Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 28
Appendix B
Management Comments to the Draft Report




            Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 29
Appendix B
Management Comments to the Draft Report




            Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 30
Appendix B
Management Comments to the Draft Report




            Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 31
Appendix B
Management Comments to the Draft Report




            Better Management Needed for the National Bio-Surveillance Integration System Program

                                                  Page 32
Appendix C
Major Contributors to this Report


                     Information Management Division

                     Sondra McCauley, Director
                     John Shiffer, Audit Manager
                     Meghan Sanborn, Auditor
                     Kristina Hayden, Auditor
                     Kia Smith, Auditor
                     Eugene Yu, Referencer




             Better Management Needed for the National Bio-Surveillance Integration System Program

                                                   Page 33
Appendix D
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary and Chief Medical Officer, Office of Health Affairs
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Program Director, National Bio-Surveillance Integration System
                      Program Manager, National Bio-Surveillance Integration System


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




             Better Management Needed for the National Bio-Surveillance Integration System Program

                                                   Page 34
Appendix D
Report Distribution




 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General
 (OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
 site at www.dhs.gov/oig.


 OIG Hotline

 To report alleged fraud, waste, abuse or mismanagement, or any other kind of
 criminal or noncriminal misconduct relative to department programs or
 operations:

     •   Call our Hotline at 1-800-323-8603;
     •   Fax the complaint directly to us at (202) 254-4292;
     •   Email us at DHSOIGHOTLINE@dhs.gov; or
     •   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

 The OIG seeks to protect the identity of each writer and caller.
